Audit Report




OIG-08-001R
Audit of the United States Mint’s Schedule of
Custodial Deep Storage Gold and Silver Reserves
as of September 30, 2007 and 2006

November 14, 2007




Office of
Inspector General
Department of the Treasury
                                    DEPARTMENT OF THE TREASURY
                                          W ASHINGTON, D.C. 20220




                                            November 14, 2007
     OFFICE OF
INSPECTOR GENERAL




          MEMORANDUM FOR EDMUND C. MOY, DIRECTOR
                         UNITED STATES MINT

          FROM:                 Michael Fitzgerald /s/
                                Director, Financial Audits

          SUBJECT:              Audit of the United States Mint’s Schedule of
                                Custodial Deep Storage Gold and Silver Reserves as of
                                September 30, 2007 and 2006

          The attached report presents the results of our audits of the United States Mint’s
          (Mint) Schedule of Custodial Deep Storage Gold and Silver Reserves (Custodial
          Schedule) as of September 30, 2007 and 2006. This report replaces our original
          report on this audit (OIG-08-001) dated October 19, 2007. We have re-issued this
          report to include the definition of a significant deficiency that is required by
          Government Auditing Standards, issued by the Comptroller General of the United
          States. This definition was omitted from our report OIG-08-001. Since we are
          recalling our report OIG-08-001, please destroy all copies of OIG-08-001 in your
          possession.

          The Custodial Schedule is the responsibility of the Mint. We conducted our audits in
          accordance with Government Auditing Standards.

          We rendered an unqualified opinion on the Custodial Schedule as of
          September 30, 2007 and 2006. In addition, our report contains no material
          weaknesses related to internal control over financial reporting, and no reportable
          instances of noncompliance with laws and regulations.

          The results of our audits will be used by KPMG LLP, an independent public
          accountant, who is performing the audits of the Mint’s Fiscal Year 2007 and 2006
          financial statements. In addition, copies of our report are being provided to the
          Secretary of the Treasury, the Treasurer of the United States, and the Department of
          the Treasury’s Chief Financial Officer.

          Your staff has reviewed our report, and agreed with our conclusions. Should you have
          any questions, please contact me at (202) 927-5789.

          Attachment
Contents



TRANSMITTAL MEMORANDUM

SECTION I - REPORT OF THE OFFICE OF INSPECTOR GENERAL

  Management’s Responsibilities.........................................................................1

  Scope of Audits .............................................................................................1

  Results of Audits............................................................................................3

      Opinion on the Custodial Schedule ...............................................................3

      Internal Control..........................................................................................3

      Compliance with Laws and Regulations ........................................................4

Appendices

  Appendix 1:          Major Contributors to this Report...............................................6

  Appendix 2:          Report Distribution...................................................................7




SECTION II - UNITED STATES MINT’S SCHEDULE OF CUSTODIAL
             DEEP STORAGE GOLD AND SILVER RESERVES
             AS OF SEPTEMBER 30, 2007 AND 2006




                       Audit of the United States Mint’s Schedule of Custodial Deep Storage                Page i
                       Gold and Silver Reserves as of September 30, 2007 and 2006
                       (OIG-08-001R)
               SECTION I -


REPORT OF THE OFFICE OF INSPECTOR GENERAL
                                                              Report of the
OIG                                                         Office of Inspector
                                                                  General
The Department of the Treasury
Office of Inspector General




                  To the Director of the United States Mint:

                  We have audited the accompanying Schedule of Custodial Deep
                  Storage Gold and Silver Reserves (Custodial Schedule) of the
                  United States Mint (Mint) as of September 30, 2007 and 2006.
                  This report presents our unqualified opinion on this Custodial
                  Schedule. Our audit disclosed no material weaknesses and no
                  instances of reportable noncompliance with laws and regulations.


Management’s Responsibilities
                  Management is responsible for: (1) preparing the Custodial
                  Schedule in conformity with U.S. generally accepted accounting
                  principles; (2) establishing and maintaining internal control; and
                  (3) complying with laws and regulations applicable to the Mint’s
                  custodial responsibilities for the Deep Storage Gold and Silver
                  Reserves.


Scope of Audits
                  We conducted our audits in accordance with Government Auditing
                  Standards, issued by the Comptroller General of the United States.
                  Those standards require that we plan and perform the audits to
                  obtain reasonable assurance about whether the Custodial Schedule
                  is free of material misstatement. An audit includes examining, on a
                  test basis, evidence supporting the amounts and disclosures in the
                  Custodial Schedule. An audit also includes assessing the
                  accounting principles used and significant estimates made by

                  Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 1
                  Gold and Silver Reserves as of September 30, 2007 and 2006
                  (OIG-08-001R)
management, as well as evaluating the overall Custodial Schedule
presentation. Our responsibility is to express an opinion on the
Custodial Schedule based on our audits. We believe that our audits
provide a reasonable basis for our opinion and our conclusions on
internal control and compliance with laws and regulations.

In planning and performing our audit, we considered the Mint’s
internal control over financial reporting related to the Custodial
Schedule as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the Custodial Schedule, but
not for the purpose of expressing an opinion on the effectiveness
of the Mint’s internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of the Mint’s
internal control over financial reporting.

Because of limitations inherent in internal control, misstatements
due to error or fraud, losses, or noncompliance may nevertheless
occur and not be detected. We also caution that projecting our
evaluation to future periods is subject to the risk that controls may
become inadequate because of changes in conditions or that the
degree of compliance with controls may deteriorate. In addition,
we caution that our internal control testing may not be sufficient
for other purposes.

As part of obtaining reasonable assurance about whether the
Custodial Schedule is free of material misstatement, we performed
tests of the Mint’s compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and
material effect on the determination of Custodial Schedule
amounts. We limited our tests of compliance to these provisions
and we did not test compliance with all laws and regulations
applicable to the Mint. We caution that noncompliance may occur
and not be detected by these tests and that testing may not be
sufficient for other purposes. Providing an opinion on compliance
with laws and regulations was not an objective of our audit and,
accordingly, we do not express such an opinion.




Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 2
Gold and Silver Reserves as of September 30, 2007 and 2006
(OIG-08-001R)
Results of Audits

Opinion on the Custodial Schedule

                   In our opinion, the accompanying Custodial Schedule presents
                   fairly, in all material respects, the balance of the United States’
                   Deep Storage Gold and Silver Reserves in the custody of the Mint
                   as of September 30, 2007 and 2006, in conformity with U.S.
                   generally accepted accounting principles.




Internal Control

                   Internal control is a process, effected by management and other
                   personnel, designed to provide reasonable assurance that the
                   following objectives are met:

                      •   Reliability of financial reporting - transactions are properly
                          recorded, processed, and summarized to permit the
                          preparation of the Custodial Schedule in accordance with
                          U.S. generally accepted accounting principles, and the
                          safeguarding of assets against loss from unauthorized
                          acquisition, use, or disposition; and

                      •   Compliance with applicable laws and regulations that could
                          have a direct and material effect on the Custodial Schedule.

                   A control deficiency exists when the design or operation of a
                   control does not allow management or employees, in the normal
                   course of performing their assigned functions, to prevent or detect
                   misstatements on a timely basis. A significant deficiency is a
                   control deficiency, or combination of control deficiencies, that
                   adversely affects the Mint’s ability to initiate, record, process, or
                   report financial data reliably in accordance with generally accepted
                   accounting principles such that there is more than a remote
                   likelihood that a misstatement of the Custodial Schedule that is



                   Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 3
                   Gold and Silver Reserves as of September 30, 2007 and 2006
                   (OIG-08-001R)
               more than inconsequential will not be prevented or detected by the
               Mint’s internal control.

               A material weakness is a significant deficiency, or combination of
               significant deficiencies, that results in more than a remote
               likelihood that a material misstatement of the Custodial Schedule
               will not be prevented or detected by the Mint’s internal control.

               Our consideration of internal control over financial reporting was
               for the limited purpose described in the Scope of Audits section
               above and would not necessarily identify all deficiencies in internal
               control that might be significant deficiencies or material
               weaknesses. We did not identify any deficiencies in internal
               control over financial reporting related to the Custodial Schedule
               that we consider to be material weaknesses, as defined above.

Compliance with Laws and Regulations

               The results of our tests of compliance with laws and regulations
               disclosed no instances of noncompliance that are required to be
               reported under Government Auditing Standards.



                                                 ******

               The financial management of the Mint has reviewed our report and
               agreed with our conclusions. Should you or your staff have any
               questions, you may contact me at (202) 927-5789. We appreciate
               the cooperation and the courtesy extended to our staff.




               Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 4
               Gold and Silver Reserves as of September 30, 2007 and 2006
               (OIG-08-001R)
This report is intended solely for the information and use of the
management of the Mint, the Department of the Treasury, the
Office of Management and Budget, Congress, and KPMG LLP, and
is not intended to be and should not be used by anyone other than
these specified parties. However, this report is available as a
matter of public record.



/s/

Michael Fitzgerald
Director, Financial Audits

October 18, 2007




Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 5
Gold and Silver Reserves as of September 30, 2007 and 2006
(OIG-08-001R)
Appendix 1
Major Contributors to This Report




Financial Audit Division

Susan Barron, Audit Manager
Donna Joseph, Audit Manager
Rafael Cumba, Auditor
Shiela Michel, Auditor
Michelle Ruff, Auditor




Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 6
Gold and Silver Reserves as of September 30, 2007 and 2006
(OIG-08-001R)
      Appendix 2
      Report Distribution




The Department of the Treasury

      Secretary of the Treasury
      Treasurer of the United States
      Assistant Secretary for Management and Chief Financial Officer
      Director, Office of Accounting and Internal Control

United States Mint

      Director
      Deputy Director
      Chief Financial Officer

Independent Public Accountant

      KPMG LLP




      Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 7
      Gold and Silver Reserves as of September 30, 2007 and 2006
      (OIG-08-001R)
                SECTION II -

UNITED STATES MINT’S SCHEDULE OF CUSTODIAL
  DEEP STORAGE GOLD AND SILVER RESERVES
                   AS OF
        SEPTEMBER 30, 2007 AND 2006
                   DEPARTMENT OF THE TREASURY
                        UNITED STATES MINT
   SCHEDULE OF CUSTODIAL DEEP STORAGE GOLD AND SILVER RESERVES
                  AS OF SEPTEMBER 30, 2007 AND 2006
                           (IN THOUSANDS)

CUSTODIAL DEEP STORAGE GOLD AND SILVER RESERVES
                                          2007                              2006___

       Deep storage gold and silver reserves (Note 2)       $10,364,687   $10,364,687

       Liability to Treasury (Note 2)                        $10,364,687  $10,364,687
                                                             ___________ ___________
Net deep storage gold and silver reserves custodial position $         0 $          0


The accompanying notes are an integral part of this Schedule.
                  DEPARTMENT OF THE TREASURY
                       UNITED STATES MINT
NOTES TO THE SCHEDULE OF CUSTODIAL DEEP STORAGE GOLD AND SILVER
                            RESERVES
                 AS OF SEPTEMBER 30, 2007 AND 2006

Note 1 Summary of Significant Accounting Policies

A.     Reporting Entity

       The United States Mint, established in 1792, is an integral part of the Department of the Treasury.
       The mission of the United States Mint is to manufacture coins for general circulation. In addition
       to manufacturing circulating coins, the United States Mint manufactures numismatic products,
       including medals, proof coins, uncirculated coins, bullion coins (gold, platinum, and silver), and
       commemorative coins. These manufacturing operations are reported in the United States Mint’s
       financial statements. The United States Mint is also the custodian of a significant portion of the
       United States’ gold and silver reserves. The United States Mint uses the term custodial to
       identify gold and silver reserves held for the United States Treasury. The custodial reserves are
       not assets of the United States Mint, but are assets of the United States Treasury.

       The United States Mint’s Public Enterprise Fund (PEF) funds all custodial activities, including
       the protection of the United States’ gold and silver reserves.

B.     Basis of Presentation

       This Schedule has been prepared to report the deep storage gold and silver reserves custodial
       position of the United States Mint. The books and records of the United States Mint have served
       as the source of the information contained herein. This Schedule has been prepared in accordance
       with accounting principles generally accepted in the United States of America (GAAP) and
       United States Mint accounting policies.

       This Schedule includes all gold and silver classified by the United States Mint as “custodial deep
       storage reserves” as defined in Note 2. Deep storage is defined as that portion of the U.S.
       Government-owned gold and silver bullion reserve which the United States Mint secures in
       sealed vaults. Deep storage gold comprises the vast majority of the reserves and consists
       primarily of gold bars. This Schedule does not reflect any United States gold and silver reported
       by the United States Mint as working stock, or any reserve amounts due to be replenished by the
       PEF, nor does it include Treasury-owned gold held at Federal Reserve Banks (FRB). Upon
       approval from the Secretary of the Treasury, the PEF may use gold and silver from the custodial
       deep storage reserves to support its numismatic operations.

Note 2 Deep Storage Gold and Silver Reserves

       The gold and silver reserves reported in this Schedule are exclusive of the gold and silver reserves
       considered to be working stock in the United States Mint’s financial records and of the Treasury-
       owned gold held by the FRB. The custodial deep storage gold and silver reserves included in this
       Schedule are primarily in bar form, but may occasionally be in coin or other form. The custodial
       deep storage reserves also include foreign gold coins that have been held by Treasury for many
       years.

       The deep storage gold and silver reserves are reported in this Schedule at the values stated in 31
       U.S.C. §§ 5116 and 5117 (statutory rates), which are $42.2222 per fine troy ounce (FTO) of gold
       and $1.292929292 per FTO of silver. An offsetting liability is also reported for these assets.
At September 30, 2007 and 2006, the market value of gold per the London Gold Fixing (PM) was
$743.00 per FTO and $599.25 per FTO, respectively. Deep storage gold inventories consisted of
the following at September 30:

                FTO                     Statutory Value          Market Value

2007            245,262,897.04          $10,355,539,091          $182,230,332,501

2006            245,262,897.04          $10,355,539,091          $146,973,791,051




At September 30, 2007 and 2006, the market value of silver per the London Gold Fixing was
$13.6500 per FTO and $11.5500 per FTO, respectively. Deep storage silver inventories consisted
of the following at September 30:

                FTO                     Statutory Value          Market Value

2007            7,075,171.14            $ 9,147,696              $96,576,086

2006            7,075,171.14            $ 9,147,696              $81,718,227



The combined custodial deep storage gold and silver reserves consisted of the following at
September 30:

                                        Statutory Value          Market Value

2007                                    $10,364,686,787          $182,326,908,587

2006                                    $10,364,686,787          $147,055,509,278
